<html>
<title> - COMPLICATIONS OF GEOGRAPHY: FOCUSING ON VBA OUTREACH, ACCESSIBILITY, LEADERSHIP AND STAFFING EFFORTS TO MEET THE NEEDS OF VETERANS LIVING IN AREAS REMOTE FROM A REGIONAL OFFICE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 COMPLICATIONS OF GEOGRAPHY: FOCUSING ON VBA OUTREACH, ACCESSIBILITY, 
LEADERSHIP AND STAFFING EFFORTS TO MEET THE NEEDS OF VETERANS LIVING IN 
                  AREAS REMOTE FROM A REGIONAL OFFICE

=======================================================================

                             FIELD HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       THURSDAY, NOVEMBER 7, 2013

                FIELD HEARING HELD IN LAS VEGAS, NEVADA

                               __________

                           Serial No. 113-43

                               __________

       Printed for the use of the Committee on Veterans' Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                         U.S. GOVERNMENT PRINTING OFFICE 

85-868                         WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
DAVID P. ROE, Tennessee              CORRINE BROWN, Florida
BILL FLORES, Texas                   MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
JON RUNYAN, New Jersey               DINA TITUS, Nevada
DAN BENISHEK, Michigan               ANN KIRKPATRICK, Arizona
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MARK E. AMODEI, Nevada               GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana

                       Jon Towers, Staff Director

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               DINA TITUS, Nevada, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
MARK AMODEI, Nevada                  BETO O'ROURKE, Texas
PAUL COOK, California                RAUL RUIZ, California
                                     GLORIA NEGRETE MCLEOD, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.























                            C O N T E N T S

                               __________

                            November 7, 2013

                                                                   Page

Complications Of Geography: Focusing On VBA Outreach, 
  Accessibility, Leadership And Staffing Efforts To Meet The 
  Needs Of Veterans Living In Areas Remote From A Regional Office     1

                           OPENING STATEMENTS

Hon. Jon Runyan, Chairman, Disability Assistance and Memorial 
  Affairs........................................................     1
Hon. Dina Titus, Ranking Minority Member, Subcommittee on 
  Disability Assistance and Memorial Affairs.....................     2

                               WITNESSES

Willie Clark, Western Area Director, Veterans Benefits 
  Administration, U.S. Department of Veterans Affairs............     4
    Prepared Statement of Mr. Clark..............................    28
    Accompanied by:

      Mr. Edward Russell, Director, Reno Regional Office, 
          Veterans Benefits Administration, U.S. Department of 
          Veterans Affairs
Katherine Miller, Executive Director, Nevada Department of 
  Veterans Services..............................................    15
    Prepared Statement of Ms. Miller.............................    30
Janet Synder, Legislative Chair, Society of Military Widows......    18
    Prepared Statement of Ms. Synder.............................    33
Bruce Hollinger, Adjutant Quartermaster, Veterans of Foreign 
  Wars, Department of Nevada.....................................    19
    Prepared Statement of Mr. Hollinger..........................    34

 
 COMPLICATIONS OF GEOGRAPHY: FOCUSING ON VBA OUTREACH, ACCESSIBILITY, 
LEADERSHIP AND STAFFING EFFORTS TO MEET THE NEEDS OF VETERANS LIVING IN 
                  AREAS REMOTE FROM A REGIONAL OFFICE

                       Thursday, November 7, 2013

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:07 p.m., at 
3rd Floor Conference Room, 495 S. Main Street, Las Vegas, NV, 
Hon. Jon Runyan [Chairman of the Subcommittee] presiding.
    Present: Representatives Runyan and Titus.

              OPENING STATEMENT OF CHAIRMAN RUNYAN

    Mr. Runyan. The oversight hearing of the Subcommittee on 
Disability Assistance and Memorial Affairs will now come to 
order.
    Usually when we hold our DAMA Subcommittee hearings, we are 
in a setting in Washington. Today I am honored and happy to be 
here with all of you in Las Vegas City Hall, in the district of 
my colleague and good friend, Ms. Titus. So, thanks for having 
us.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Runyan. I would like to personally thank Ms. Titus for 
inviting me here to her district, and I would like to thank 
everyone for being with us today. Although we are far away from 
our normal hearing room on the Hill and the C-Span cameras that 
everybody loves so much, it is still an official congressional 
oversight hearing of the House Veterans' Affairs Committee, and 
hearing rules of conduct apply. Therefore, I would respectfully 
request that everyone be courteous to our witnesses and remain 
silent until the hearing is formally adjourned.
    Chairing the Subcommittee on Disability Assistance and 
Memorial Affairs, I have the opportunity to work on many issues 
that affect our Nation's veterans, whether they are in my home 
district in New Jersey or here in Nevada, or elsewhere across 
our Nation. From working on these issues, I have learned 
firsthand that veterans' experiences with the Veterans Benefits 
Administration can make a significant impact on the success of 
that veteran's disability claim. Although the folks at VA are 
working hard to move forward to move toward a national 
electronic claims processing model, the fact remains they have 
not fully achieved this transition yet. As a result, many 
veterans who do not live close to a regional office experience 
difficulty navigating the disability claims system.
    One of VA's primary outreach tools is the e-Benefits 
portal, which allows veterans to submit and receive their 
updated claim information from their home computer. Although 
this system is promising, many veterans still benefit from a 
face-to-face interaction with VBA employees and veterans 
services officers at the regional office for assistance with 
the questions they may have.
    Further, a number of elderly veterans simply do not feel as 
comfortable with technology as our newest generation of 
veterans do. Thus, although VA has recently put great emphasis 
on technology as the pathway forward for a disability benefits 
process, I want to again emphasize the need for VBA to remain 
ready to provide individual assistance and outreach to disabled 
veterans who may be in need of personalized attention.
    Accordingly, VBA's staffing and resource allocation must 
continue to accommodate intake sites and outreach facilities in 
its locations that are remote from the regional office, such as 
the intake center at the Las Vegas medical center that we had 
the opportunity to visit earlier today.
    So, that is why we are here today, to examine these issues 
not from afar in Washington, D.C., but right here in Las Vegas, 
Nevada, where veterans live approximately 450 miles from the 
regional office that serves them, which is located in Reno, 
Nevada.
    I would like to welcome our witnesses that have joined us 
here today to discuss this important topic. We hope that a 
thorough discussion and questioning such as will occur today 
can work collectively, not only to meet the challenges, but to 
exceed the standard.
    Today we will hear from Willie Clark, the Western Area 
Director for Veterans Benefits Administration, U.S. Department 
of Veterans Affairs, accompanied by Edward Russell, Director of 
the Reno Regional Office; Katherine Miller, the Executive 
Director of the Nevada Department of Veterans Services, 
accompanied by Bill Baumann, Chairman of the Nevada Veterans 
Services Commission; Janet Snyder, representing the Society of 
Military Widows of Southern Nevada, Chapter 34; and Bruce 
Hollinger, representing the Veterans of Foreign Wars Department 
of Nevada.
    With those introductions complete, I thank you all for 
being with us today, and I now yield to our Ranking Member, Ms. 
Titus, for her opening statement.

              OPENING STATEMENT OF HON. DINA TITUS

    Ms. Titus. Well, thank you, Mr. Chairman, and thank you for 
making the trip all the way out to Southern Nevada for this 
important hearing. This is, as you heard, to host a hearing to 
hear about what veterans have to deal with here in Southern 
Nevada when we are so far away from a regional office.
    I would like for you all to know that our Subcommittee and 
its focus on veteran benefits has been gathered by a strong 
sense of bipartisanship to ensure that veterans across the 
country get the benefits that they need in a timely fashion, 
and I credit our Chairman, Mr. Runyan, for making that 
possible.
    I am sad to tell you this, and you may have already heard 
it in the news, but that Mr. Runyan announced yesterday that he 
is not going to run for reelection.
    So I will miss seeing you on this Committee and in 
Washington, and I will miss working with you. Veterans across 
this country have greatly benefitted from the contribution you 
have made, and the terms that you have been there. So we all 
thank you for that.
    I, too, want to thank the witnesses who are with us today. 
You represent a large community, about 175,000 veterans here in 
Southern Nevada. So thank you for taking time to come and share 
some thoughts and some information with us.
    I also want to thank the people from City Hall, this great 
building, who have been willing to host us here, so that we 
could have our hearing.
    The concerns regarding the VA benefits backlog are front 
and center. We hear about them all the time. You experience 
them. This is certainly a priority. And since becoming Ranking 
Member of this Subcommittee, I have made it my priority to try 
to find some solutions, whether they are electronic or 
involving personnel or involving infrastructure, to these 
problems, so we can get rid of that backlog so people can get 
their benefits.
    I am glad to say that some progress has been made in this 
area, but we still have a lot of work to do.
    The 170,000 or so veterans--and we can't count them all; it 
is hard to count them, and we know many veterans are homeless, 
and they are especially hard to count--are served by the Reno 
Regional Office. This office is charged with serving veterans 
throughout the state, as well as several counties in 
California. So this is a very large area here in the Western 
United States that is served by that one office.
    The Reno office is probably one of the most challenged 
offices in the West. It currently has 5,813 claims pending. Of 
these, 56 percent are backlogged, which means, they have been 
pending for 125 days or longer. This translates to more than 
3,200 claims pending, which is well beyond the VA's national 
goal.
    It is also concerning that the claims that have been 
completed are not being processed accurately. The rating 
decision accuracy is 89 percent, meaning roughly one in ten of 
the decisions that are handed down is incorrect and has to be 
redone, which further delays the process for veterans who are 
waiting for their benefits.
    In fact, the Reno office has struggled to the point that 
the VA was forced to send claims from Nevadans to other offices 
around the country. Had the VA not done this, the Reno office 
figures would have been even worse. Just this year, the Reno 
office sent 6,000 claims to other VAs in other parts of the 
country. That is the equivalent of the entirety of their 
current claims inventory.
    This means that the metrics for Nevada's veterans are worse 
than they just appear from looking at the numbers. Because of 
these performance issues, veterans are likely waiting longer 
for their decisions, up to one year or maybe longer on claims 
that are being worked on not even in Reno, not in Las Vegas, 
but not even in Reno, but are in South Carolina, Mississippi, 
Oregon and Idaho.
    Recent concerns have been raised regarding the staffing 
levels at the Reno Regional Office, and considering that the 
Reno VA is shipping at least half of its workload to other 
stations, I am concerned about that as well.
    However, while we need to maintain proper staffing levels, 
I am also concerned about the productivity of the station and 
the retention level of employees there, and I have voiced these 
concerns with Members of the VA, including the Secretary, 
Shinseki.
    Our Subcommittee staff, Justin and the Subcommittee staff 
and the whole Committee, visited the Reno VA Regional Office on 
Tuesday to learn more about what is happening there, and the VA 
leadership indicated that that office is properly staffed now 
to reach its monthly productivity goals. They learned that 
Reno's monthly and annual productivity goals, however, continue 
to be missed. Similarly sized regional offices in the West are 
exceeding similar goals with the same staffing levels. We want 
to figure out what the problem is.
    Local leadership indicated that they will soon begin to 
reach some of these goals, and I am hopeful that that will 
happen, but I promise you that I will carefully monitor the 
progress there, and ask the VA to keep me informed to be sure 
that that is happening.
    I want to thank Mr. Clark and Mr. Russell for coming to 
this hearing, and I want them to know that I am committed to 
working with them to help bring the Reno Regional VA Office up 
to speed, not just meet the standard, as the Chairman said, but 
to do even better than that, and if you will tell me what you 
need, I will be your strongest advocate in Washington, to be 
sure we get it, so our veterans can be served.
    I want to thank the Nevada Office of Veterans Affairs, as 
well as the VFW and the Society of Military Widows for all you 
do every day to help our veterans. We certainly appreciate it, 
and I am looking forward to hearing from you as well, and will 
appreciate your testimony.
    So thank you, Mr. Chairman. With that, I will yield back.
    Mr. Runyan. I thank the gentle lady.
    At this time, I would like to welcome our first panel to 
the witness table. Our first panel consists of Mr. Willie Clark 
and Mr. Edward Russell with the Veterans Benefits 
Administration. Your complete and written statements will be 
entered into the hearing record.
    Mr. Clark, you are now recognized for 5 minutes for your 
oral statement.

  STATEMENT OF WILLIE CLARK, WESTERN AREA DIRECTOR, VETERANS 
 BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
ACCOMPANIED BY EDWARD RUSSELL, DIRECTOR, RENO REGIONAL OFFICE, 
 VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

    Mr. Clark. Thank you. Good afternoon, Chairman Runyan, and 
Members of the Subcommittee. Thank you for the opportunity to 
discuss services provided to veterans and their families 
throughout Nevada.
    Mr. Runyan. Could you move a little bit closer to the mic?
    Mr. Clark. I am accompanied today by Mr. Ed Russell, the 
Director of the Reno Regional Office.
    As the seventh largest state in the United States, Nevada 
encompasses approximately 110,000 square miles. It is home to 
more than 244,000 veterans who reside within the Reno RO's 
jurisdiction, with an additional 11,400 veterans residing in 
four California counties also served by the Reno RO. Of these, 
approximately 33,500 veterans receive VA compensation or 
pension benefits, and an additional 610 beneficiaries receive 
survivors' benefits. Over $38.5 million in compensation and 
pension benefits are paid monthly.
    As you are aware, Nevada is comprised of 17 counties, of 
which Clark County is the largest, with a population of nearly 
2 million, followed by Washoe County with a population of over 
420,000, and Elko County with a population of nearly 50,000. 
The majority of the state's population, which is approximately 
88 percent, resides in only two counties, with the remaining 
population scattered throughout the remaining counties. The 
smallest county, Esmeralda County, has a population of fewer 
than 800 people.
    Nevada is unique in that nearly 87 percent of the land is 
federally controlled, thus making the state an ideal location 
for those who enjoy rural living. However, one of the 
difficulties with rural living is limited accessibility to 
resources.
    The Reno RO processes claims for disability compensation 
benefits and provides vocational rehabilitation and employment 
services for our disabled veterans. The RO also provides claims 
assistance to over 600 veterans and family members per month.
    In addition, the RO has an out-based office in the newly 
opened VA Medical Center in North Las Vegas, approximately 450 
miles from the main RO facility. The Las Vegas office primarily 
delivers vocational rehabilitation and employment services, 
placing rehabilitation counselors in the area where the 
majority of the jobs are located. This out-based office also 
has some limited claims processing capabilities and four intake 
specialists who assist over 2,150 visitors per month.
    The Reno office provides space for five Veterans Service 
Organizations, VSOs, and the North Las Vegas VA medical center 
provides space for nine VSOs. To overcome Nevada's geographical 
challenges, the RO collaborates with its stakeholders to 
provide outreach to our veterans residing in remote areas.
    In addition to VSOs, the stakeholders working in 
partnership with the RO include: Nevada's two VA medical 
centers; congressional offices; the Nevada Division of Veterans 
Services; the Nellis Air Force Base; the Fallon Naval Air 
Station; the Nevada National Guard; and the Air National Guard. 
The RO participates with these stakeholders in their veterans' 
events to extend outreach to veterans and their families 
experiencing geographical obstacles. The following are a few 
examples of the veterans' events held over the past year.
    The Reno VA medical center held an open house at the 
outpatient clinic in Winnemucca, Nevada. The population in the 
area is less than 7,500 and two-and-a-half hours away from the 
RO. The RO was there to provide information and services. In 
addition, the RO had representatives at VA medical center 
veterans' events in Susanville, California, and Pahrump, 
Nevada.
    The RO attended local conferences held by Native American 
tribes to provide updates on veterans' benefits, answer 
questions, and to provide direct assistance with claims. The RO 
also conducted outreach for local Native American tribes in 
partnership with the Reno VA medical center.
    The RO participated in Senator Heller's Veterans' 
Roundtable.
    Congressman Amodei held quarterly town hall meetings across 
the 2nd District.
    The RO had representatives at every town hall to include 
Elko, Winnemucca, Fallon, and Carson City.
    Congresswoman Titus held a workshop and training session on 
the Fully Developed Claims and the e-Benefits for veteran 
stakeholders in the North Las Vegas area.
    The RO continues to build strong relationships with the 
Nevada military bases at Nellis Air Force Base, Fallon Naval 
Air Station, and the Nevada National Guard.
    Collaboration with the VSOs has been invaluable in serving 
veterans in rural areas. Our VSO partners are knowledgeable 
about VA's benefit programs and the services provided by the 
RO.
    Two of VA's highest priority goals are to increase access 
for veterans and their families all across the country and 
eliminate the disability claims backlog in 2015.
    This concludes my statement. I would be pleased to answer 
any questions at this time.

    [The prepared statement of Willie Clark appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Clark.
    We will begin a round of questions, and obviously, I think 
Ms. Titus' questions are going to be a little more detailed, 
because she tends to know the statistical analysis of the Reno 
RO a little more in-depth than I do. Obviously, I know my 
Jersey statistics well. I am sure she is not as up on them.
    But you stated in your statistics, with the actual RO being 
located in Reno, why do more VSOs have office space here in Las 
Vegas than they do actually at the Reno RO?
    Mr. Clark. Thank you for that question, Mr. Chairman. We do 
have more veterans in this area, and we placed the VSOs here, 
or the VSOs are placed here to meet the needs of those 
veterans, to offer that face-to-face opportunity that you spoke 
about earlier. We also have the four intake specialists here at 
the regional office to help assist take claims for the regional 
office in Reno.
    So we realize that we need to have individuals on-site for 
claims intakes, and working in collaboration with our VSOs, 
along with the claims intake specialists, we feel that we have 
ample resources here for claims intake. We scan all of our 
cases in, and the ratings are done at the Reno office.
    Mr. Runyan. As VA continues to emphasize its transition to 
the paperless process, this transition will be presumably 
increase productivity in terms of claims processing. But 
veterans living in remote areas do not have access to the 
Internet, so how is VA planning to assist veterans in remote 
areas with access to technology as a gateway to other VA 
services?
    Mr. Clark. Well, again, working in collaboration with the 
Nevada Department of Veterans Services, the VSOs, and then our 
outreach specialists, I spoke to earlier, all of the outreach 
events that Mr. Russell's staff attends. When we make visits at 
these events, when we have access to computers, we sign folks 
up for e-Benefits accounts. We do face-to-face meetings to 
explain veterans' benefits.
    So as you mentioned, our e-Benefits and VBMS, the Veteran 
Benefits Management System, will allow us to become more 
efficient. And as we conduct these outreach events in 
collaboration with all of our stakeholders, we provide training 
on being able to gain access to our benefits via the computer, 
but we are also there face-to-face to help them file claims and 
give an update on the status of their benefits.
    Mr. Runyan. I can tell you in my district, New Jersey being 
the most densely populated state in the country, but where I am 
at are out in the middle of the woods. People think we are in-
between New York and Philadelphia, but our veterans, I can tell 
you, when you talk about access to care or access to an RO, can 
be 2 to 3 to 4 hours away even though they are under 100 miles 
away. You have individuals out there.
    I make that point just for this, our passion is not letting 
anybody fall through the cracks. There are people out there, 
there are veterans out there that are falling through the 
cracks that you may never reach. I just bring that up out of 
personal experience, because I deal with it every single day.
    I have one more question, and I am actually going to direct 
it to Mr. Russell.
    In the written testimony, the Reno RO is ``in a rebuilding 
stage.'' What specific steps is the RO taking to ensure this 
rebuilding results in higher morale at the office, which in 
turn will produce better decisions for the veterans? And why do 
you think the Reno RO has been plagued by staffing and 
leadership challenges to the extent that it has, when other ROs 
of similar size have not experienced the challenge?
    Mr. Russell. Yes, sir. Thank you for the question. We 
experienced a high turnover rate in Fiscal Year 2012, and what 
we learned from this was, people were not doing the job that 
they were best fit for, and it took time to move those people 
to do something else other than claims processing.
    What we learned from this was that the hiring metrics were 
not good there. We would bring people in off a cert, give them 
an interview, give them a job. Now we bring them into a 
recruitment orientation. We show them the jobs, tell them the 
expectations of the jobs. The coaches tell them this is a 
production job, high quality. So people know now what they are 
getting into in doing the job.
    Mr. Runyan. So that was a change in hiring procedure?
    Mr. Russell. It is not a change ----
    Mr. Runyan. Not a change, but an emphasis?
    Mr. Russell. Yes, it is more of a screening process and 
making sure that people or candidates applying for the job are 
right for the job. We had success over the last year with this. 
We brought in eight people, and we have only lost one person, 
and we asked him why he quit after the orientation and 
everything, he said he just needed a job. But we only spent six 
months investing in his training and not two or three years. 
What we found in Fiscal Year 2012, when people realized--you 
know, this is a tough job. It is a very technical job. There is 
a lot of training involved in it.
    Mr. Runyan. With that, I will now recognize the Ranking 
Member, Ms. Titus, for her questions.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Clark, in the past year, the Reno VA Regional Office, 
our VRO, met its monthly production goal only one time. And in 
six of the previous months, it missed its production goal by 
more than 30 percent. I wonder if you can tell us, is this 
monthly goal unrealistic? What is being done to address this 
problem? Are other regional offices having the same problem? 
Who is being held accountable? Would you address that for us?
    Mr. Clark. Thank you for the question, Congressman Titus. 
The Reno office is fully staffed to do their work. But as Mr. 
Russell just mentioned, when one hires new people, there are 
different expectations of output. So you may not know, but we 
call a journeyperson an individual who is fully trained that 
has been in that job for two years. And if we are holding folks 
accountable and saying that they must give us the requisite 
output, and we have to replace that individual, then the new 
person coming in is not giving us that requisite output. It 
takes time to get them up to speed.
    So the reason that he is not making goal is not because 
there is just a lot of underachievers. It is just that the 
level, the journeyperson level of the individuals that he has 
currently in place are not at the requisite output.
    Still, what we do for that office, we levy that office with 
an expected output, and if they can't make that output, then 
that is what we use. We have a system where we move work to 
other regional offices because what we are doing is, we are 
working our oldest cases. As Mr. Chairman spoke to earlier, we 
have initiatives underway. We work our oldest cases. We started 
with the oldest of the old. Anything over 2 years old, we work 
those cases. Reno doesn't have any.
    We are now working on the 1-year-old cases. And as we 
finish those, we are going to work our way back, and our goal 
is by 2015, there will be no case pending over 125 days, and 
the accuracy will be 98 percent without fail. We feel we can do 
that, and we certainly feel we can do that in Reno.
    Ms. Titus. So we can then start expecting them to meet 
their goals when?
    Mr. Clark. I will let Mr. Russell speak to that, but I am 
thinking next year he should be able to, here within the next 
90 days to 180 days, they should be at--I am levying his 
station with approximately 600 claims per month, and there is 
an expectation that folks would work some overtime. We have an 
initiative right now for mandatory overtime. We can't continue 
that. That is too costly. But we do allow stations to work 
overtime when there are shortages in the output for varying 
reasons.
    Ms. Titus. Well, I hope you will keep me posted on that 
progress.
    My other question, you pointed out that Las Vegas has 2 
million people. Reno has 400,000. Elko has 50,000. You have 75 
people in the Reno office who are working on these claims. You 
have three people in the Las Vegas office who are working on 
claims. What is the logic of having an office in Reno, instead 
of having it here, where most of the veterans are? We have 
175,000 veterans here. Why do we have to come here, go out to 
the hospital, deal with three people who then send the stuff to 
Reno, and then maybe it gets sent somewhere else, or maybe it 
gets addressed? What would it take to get an office here or 
move that office here, or create a new area? What would that 
take?
    Mr. Clark. Thank you for that question, Congressman Titus. 
Presently, the staffing here in Las Vegas is for claims intake. 
So their job is to take all incoming claims, and we get those 
cases scanned in. So they receive the claims, they provide the 
benefits briefing, and then we have individuals, the ratings 
specialists and the VSRs, mainly the rating specialists that 
make the decisions. So there are no decision-makers here, and 
they don't need to be here to make the decision. Who needs to 
be here are the individuals that can take the claim and explain 
the benefits and explain the decision that the ratings 
specialists make.
    So I understand that there are more veterans in this area. 
But again, what we need here, and which we think we are staffed 
adequately to do that is to receive the claims coming in. We 
have a great system that we showed some members today of how we 
triage folks when they come in. There is not long waiting. 
Additionally, we have VSOs that are in that same office. We 
work collaboratively together, and the job is for them to 
receive the claims and get them scanned in. So whether you are 
in Reno, the same thing applies. You bring that case in, you 
get it scanned in, and then it is worked by a ratings 
specialist. And in Reno, that ratings specialist just happens 
to be there, but they don't need to be in the same physical 
location.
    Ms. Titus. Well, why don't you put the three specialists up 
there for people to walk in and move those 75 people down here 
if they don't need to be there?
    Mr. Clark. Well, we need the folks to make the decisions. 
It is just that they don't have to be here. So again, what we 
need here are individuals for claims intake, and the 
individuals here do take--they are able to take all of the 
walk-ins.
    Ms. Titus. Well, it seems to me that the people in Reno can 
walk in the door and find somebody who is working on their 
claim and get a faster answer than somebody down here who then 
has to go to the 800 line or call my office, and then we have 
to call the Reno office and try to get the information. It 
seems to me three people for 175,000 veterans just doesn't make 
any sense.
    Mr. Clark. Well, again, ma'am, we look at our timeliness 
because we are getting calls right now--our backlog is dropping 
drastically. So you are getting calls, and that is why we are 
moving towards that 2015 goal of no cases pending over 125 days 
with a 98 percent accuracy.
    Ms. Titus. Excuse me. When you send those cases somewhere 
else, when you have gotten rid of half of your cases and sent 
them somewhere else, do you still track those for the veterans 
in Nevada, or then, are they just on their own to try to track 
them wherever they are in South Carolina?
    Mr. Clark. We track those cases.
    Ms. Titus. You still track those cases that you have sent 
out of the state?
    Mr. Clark. That is correct.
    Ms. Titus. Is that correct, Mr. Russell?
    Mr. Russell. Yes. They show up on our inventory and we can 
see where they are at, and I have directors call me every once 
in a while when they are having an exam problem at the 
hospital, and I track them for them and move them, get the exam 
back to them as quick as possible.
    Mr. Clark. Any cases within my jurisdiction, those cases 
are tracked, and if a case is not moving fast enough, then, 
wherever I have to call, I make those calls to make that 
happen. So there is no difference in timeliness between a 
person, the zip code where he or she, that veteran resides. 
That is what we are moving towards. We are making that 
seamless. Wherever you submit your claim shouldn't matter. If 
you served together in Afghanistan or in Vietnam, you didn't 
serve one person in one city in Nevada, and someplace, some 
person lives somewhere else, and now there is a difference in 
the timeliness of your claim.
    What we are doing, is to have a system where all claims are 
worked timely, and that is what we are doing. We are working 
our oldest cases, and we sincerely apologize and feel terrible 
about the backlog, but we are attacking that backlog, and we 
are getting it down, and we are going to continue until we 
reach that goal, and we will reach that goal.
    Ms. Titus. I know you are doing that. I know that 2-year 
claims have been resolved. This year, you are supposed to get 
through with the 1-year claims, and I support that goal. I just 
am concerned, in the meantime, that Southern Nevada veterans 
are getting short-changed because of what is happening in Reno, 
and they don't have enough access to their records, their 
progress, their help, despite all the good work that the 
volunteer associations do.
    Mr. Clark. Well, ma'am, as of right now, our next goal is 
any case that is pending over 334 days. That is our next goal. 
We did the 2-year, the 1-year, and we are just working our way 
back. We will get to the 125 days and 98 percent accuracy by 
2015. And like we said, we set a goal over 2 years old; we met 
that. We set another goal for the over 1-year-old, and last 
month we met that. We are going to continue to walk this back 
until we get all of these cases done.
    Ms. Titus. Thank you, Mr. Chairman. I am going to ask Mr. 
Russell after he testifies, if that is okay.
    Mr. Runyan. I don't think Mr. Russell is testifying.
    Ms. Titus. Oh, you are not? I thought maybe he was going to 
give his little ----
    Mr. Runyan. I will let you go, if you will yield one second 
to me.
    Ms. Titus. Of course.
    Mr. Runyan. Just for clarification purposes, when a claim 
leaves the Reno RO and is adjudicated elsewhere, does days 
pending count against your metrics?
    Mr. Russell. No, they do not. We are showing better 
tracking on the days pending. We just had this conversation 
yesterday about the stuff I send out, that it matches the 
proximity of each one of them. But as far as days to complete, 
the numbers--excuse me. It does count in my numbers. I am 
sorry. I am looking at two different things when I look at the 
regional office and the national scorecard. Those numbers are 
included in there. That is why I am still showing over 450 days 
to complete, because there are a lot of 1-year-old cases still 
out there that have not been completed that were brokered out.
    Mr. Runyan. I will give it back to the gentle lady.
    Ms. Titus. Thank you, Mr. Chairman.
    So, Mr. Russell, can you tell me how many current claims 
you have in the Reno office that are over 125 days?
    Mr. Russell. It is 56 percent from the 5,800 number.
    Ms. Titus. Fifty-six percent of 5,800?
    Mr. Russell. Yes.
    Mr. Clark. That is approximately 3,600, 3,800. We can get 
the exact numbers.
    Ms. Titus. Okay. How do you decide which claims get sent 
off somewhere?
    Mr. Russell. We are given a number of cases. Over the 
summer, we were given 4,300 cases to broker out to three 
different stations. What we did was look at the ones that we 
had in our filing system and went down the line that way and 
shipped those out. We had a short time period of getting them 
out the door, boxed up and FedEx out. So there was really no 
screening as far as what process or what stage of the process 
that claim was in at.
    Ms. Titus. So it is just whatever was on top of the pile?
    Mr. Russell. What was in the file. We have files that were 
at the medical center waiting for exams. We didn't send any of 
those out because it would just confuse the medical centers 
about where to send the case back.
    Mr. Clark. Congressman Titus, how we work that is, we look 
at the aggregate output for the entire Nation, and we go 
through--as an example, when we did our over 2-year-olds, we 
went through and every case that was over 2 years old we said, 
okay, this is our universe, and whatever that universe is, we 
split that out amongst all of the ROs, and everyone has a 
portion of those to work, including Reno. And when we did the 
1-year, we got another set of universe, and we split that out 
evenly.
    So irrespective of where that claim came from, because 
again, we are serving veterans, not claim folders. So if you 
are in New York and there is a veteran that needs to be served 
and you have capacity, we are going to give that to you. So 
that is how we are working these cases.
    Unfortunately, we can't work them all at one time. We get 
our oldest cases, and then we meted those out. We send them to 
the stations and we give them a timeline that says, you have X 
number of cases, you need to undertake development and you need 
to rate those cases by this date. If you don't get that done, 
you have to answer to your boss.
    So Mr. Russell can tell you we had a lot of calls about the 
progress of each of the cases to make sure that they were in 
line and exams were being conducted and the proper development 
was being done. Now we are working on cases under a year, and 
we will keep walking it back. We will get to six months, and we 
will get to four months, and then down to the 125 days.
    Ms. Titus. Just one last question, Mr. Chairman.
    So when cases come to you, Mr. Russell, you process them 
just based on when they come in? You are not, like, doing the 
Reno ones first because they are close by and they can holler 
the loudest, and then the ones from Las Vegas go to the back of 
the list or anything? How does that work?
    Mr. Russell. No, ma'am. It is not based on where the person 
lives. It is based on a date of claim, when we get the claim 
in. As Mr. Clark mentioned, by now, we are working the oldest, 
not based on any place where the veteran lives.
    Ms. Titus. What about if a new claim comes in today from 
Las Vegas? Where does that go?
    Mr. Russell. The best way a new claim could come in would 
be fully developed, which we work with the service officers 
over the last year, and of course at your meeting that we held 
there. Those are the ones that move through the system a little 
quicker because everything is there that we need. But as far as 
a claim coming in from a veteran, it is brought in at the Las 
Vegas office, and it is sent up to Reno, and it is put in the 
date of claim order.
    Mr. Clark. And, Congresswoman Titus, a great question. 
Thank you for that question. But in addition to working the 
older cases, any new cases coming in, you have to work those as 
well. If you don't, everything gets old. So we have a two-
pronged approach. Mr. Russell knows that everything that comes 
in the door every day, you have to look at that and undertake 
the proper development. That is the reason why all our stuff 
got old to begin with. We just didn't have--with a lot of 
initiatives previously, decisions that were made, which we all 
are in agreement with, Agent Orange and the economy, we had 
PTSD, relaxation of some stressors that created this big 
backlog for us. We got that down.
    But you have to work the new cases coming in, develop those 
properly, get an exam on them, as well as that portion of the 
old. So when I allocated Reno resources, they can do 600 cases, 
I say, okay, maybe 450 of those are old and 150 are new, and 
you kind of have to work both ends of the camel, if you will, 
to make sure that while you are taking care of the old stuff 
that has been around, you also have to work some of the newer 
cases.
    So we are working some newer cases, because if you work 
only old, then everything becomes old.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Runyan. I thank the gentle lady.
    I think it is more systemic in the VA than anything else, 
and you just brought it up, Mr. Clark. You said that the 2-year 
initiative was divided and disbursed evenly, correct? The VA 
overall said there are this many in the backlog that are 2 
years and older, and you said that they ----
    Mr. Clark. Mr. Chairman, maybe I misspoke. When I said 
evenly, what we did was every ----
    Mr. Runyan. You said you took the universe VA-wide.
    Mr. Clark. That is correct, because if we wanted to rid 
ourselves of all of the over 2-year-old cases, we had to get 
that universe of whatever that is, and send those out to the 
stations based upon their capacity to work them. But in 
addition to working their allocation of over 2-year-olds, Mr. 
Russell had more 2-year-old cases that he could work within 
that allotted timeframe. So he got his allocation of 2-year-
olds, all of which were Reno or Nevada cases, and then the 
residual of those I had to send to other places. If not, I 
would have had to just wait until he finished all of those 2-
year-olds and it would have taken forever.
    Mr. Runyan. No, and I get that. Obviously it is a huge 
problem, with the Reno office holding that many of them there. 
But I think systemically, when you look at VA, capacity and 
completion are two different things. Every regional office out 
there has a different rating on what they are able to 
accomplish. I mean, Mr. Russell has said here numerous times, 
and you said it yourself, there are times when you lack those 
journeymen people that can execute these. That is part of the 
equation. And I think when you look at the situation with VA 
saying, we will just give everybody the equal amount, well, not 
everybody has the personnel, the knowledge, the people that are 
trained with the ability to do it. I think it is shortsighted 
of VA, at the end of the day, to try to do that.
    Mr. Clark. Mr. Chairman, and again, I apologize. I 
misspoke. When I said even, we didn't take the universe and 
split it by 57 ROs. We gave an allocation based upon what Ed is 
able to work. So Mr. Russell is able to--as an example, I will 
use that 600 figure. So what I would have done is, I would have 
given him 500 of those 2-year-old cases and then said the other 
100, you have to work some newer work, like that. So it is not 
a basic math thing.
    We know what his capacity is and should be, and using his 
available resources, using overtime, then it is incumbent upon 
each of the ROs to make those goals. That is the only way we 
are going to get it, is to hold people accountable, and it has 
been working. We are walking these cases back. We have the 2-
year-olds, and we have done the 1-year-olds, and we will 
continue until we get to the 125, 98.
    Mr. Runyan. And I know Ms. Titus said this earlier, too: If 
you need help, don't be afraid to ask. That is all we ask of 
you. I don't think anybody on this Committee, both sides of the 
aisle, has ever said no to anything the VA has ever asked for. 
It is about being truthful.
    The next comment I really want to make, because you can 
hear the ruckus in here, and at the end of the day, you are in 
the customer service business.
    Mr. Clark. Yes, sir.
    Mr. Runyan. I know personally dealing with it, I know Ms. 
Titus does in her personal office also, dealing with veterans 
that have problems all the time, the lack of communication is 
about 80 percent of the frustration. I know we just passed a 
bill off the House floor the other day allowing the VSOs to go 
in and see basic tracking information, just to give some 
comfort to veterans to know where their claim is in the 
process. And when they ask for basic information like that, 
they feel they get the run-around a lot of times.
    I don't know if it is a lack of training, I don't know if 
it is a lack of leadership not being there saying, this needs 
to be something that we need to do, because we are losing the 
customer service battle at the end of the day. I just wanted to 
make that statement.
    If Ms. Titus has anything to add?
    Ms. Titus. Just one last thing. I know that Reno is not 
meeting its goal of 350 to 400 average, they are supposed to be 
doing 600, and you have said that somebody will be held 
accountable. But earlier, you said that if you hire a new 
person, then it takes them two years to meet a certain 
requirement. So I get the impression that sometimes it is 
better to keep on an old bad person than hire a new person, 
because they have to go through the training. So I don't know 
who is being held accountable. Do we need to do something about 
holding people more accountable who aren't delivering?
    Mr. Clark. That is a great question, and there are some 
managers who may think that it is better to keep a bad person 
than to take the steps to remove that individual, or first see 
if you can train them and find them the right position. But 
those folks--then I am not holding the directors accountable, 
and I believe in holding directors accountable.
    So, Mr. Russell, if we go back to an earlier part of the 
year, the last fiscal year, that is when the RO was not meeting 
goal as much, but they have been improving, because as those 
new people mature, then their output continues to increase, and 
we have mechanisms that we check on all of our stations to see 
what the output is for that individual based upon their 
maturation level. And if they are not giving us the output, 
then the question goes to the managers and leaders of that RO 
and to me, because I am accountable to the Secretary, to ensure 
that we are serving veterans right.
    We are not doing veterans favors when we rate their 
decisions timely. We are giving them what they deserve, and we 
are thankful--and I want to say this to the Chairman--that 
Congress has given us unprecedented budgets in the last several 
years, and we are thankful for that. That is why we are using 
these resources to update our IT systems, we are training 
folks, we have hired additional folks, and we will continue to 
do that because we are going to make the goal.
    We know we need to do it. That is our job, and that is what 
you expect of us, the American people expect, and that is what 
we are going to deliver.
    Ms. Titus. Thank you.
    Mr. Runyan. I thank the gentle lady and the gentlemen on 
behalf of the Subcommittee. I thank you for your testimony. We 
look forward to working with you on these important issues, and 
you are now excused, and we welcome the second panel to the 
witness table.
    Mr. Clark. Thank you, Mr. Chairman.
    Mr. Runyan. At this time, I would like to welcome our 
second panel, Ms. Katherine Miller from the Nevada Department 
of Veterans Services, accompanied by Bill Baumann; Janet Snyder 
with the Society of Military Widows of Southern Nevada; and 
Bruce Hollinger with the Veterans of Foreign Wars Department of 
Nevada.
    We appreciate all of your attendance today. Your complete 
and written statements will be entered into the hearing record.
    And with that, Ms. Miller, you are now recognized for 5 
minutes for your oral testimony.

  STATEMENTS OF KATHERINE MILLER, EXECUTIVE DIRECTOR, NEVADA 
 DEPARTMENT OF VETERANS SERVICES, ACCOMPANIED BY BILL BAUMANN, 
NEVADA VETERANS SERVICES COMMISSION; JANET SNYDER, LEGISLATIVE 
 CHAIR, SOCIETY OF MILITARY WIDOWS; BRUCE HOLLINGER, ADJUTANT 
 QUARTERMASTER, VETERANS OF FOREIGN WARS OF THE UNITED STATES, 
                      DEPARTMENT OF NEVADA

                 STATEMENT OF KATHERINE MILLER

    Ms. Miller. Good morning, or good afternoon, Chairman 
Runyan, Ranking Member Titus, and Members of the Subcommittee. 
My name is Katherine Miller, and on behalf of the Nevada 
Department of Veterans Services and the approximately 300,000 
veterans we serve, I thank you for the opportunity to discuss 
veteran outreach.
    With me today is Mr. Bill Baumann, Chairman of the Nevada 
Veterans Services Commission.
    As a veteran with 34 years of military service, I am proud 
to be part of Nevada's drive to create opportunities for our 
veterans. The Nevada Department of Veterans Services assists 
veterans with claims for benefits, provides skilled nursing 
care, provides burial support at our state veterans' 
cemeteries, and help veterans successfully integrate into our 
communities.
    Our vision is that all Nevadans celebrate the legacy of 
America's heroes, and working together, we ensure that veterans 
can have access to opportunities that improve their lives. To 
realize that vision, we have invested significant effort 
developing initiatives to improve delivery of services to all 
of our veterans, wherever they may live. I will share some of 
these efforts with you today, as well as discuss the impact of 
several U.S. Department of Veterans Affairs initiatives.
    While most Nevada veterans live in the Las Vegas or Reno 
areas, 32,000 veterans call rural Nevada home. Many of these 
rural veterans find it impossible because of health or expense 
to come to cities for services. This reality has driven my 
agency to develop initiatives to bring services to veterans 
wherever they may live. I am going to discuss a few of those 
initiatives today.
    The first is our ROVER Program. This is a rural outreach 
program that sends traveling service officers, referred to as 
VSOs, to rural communities. They provide information relating 
to opportunities and help veterans prepare claims. ROVER is 
currently supporting 17 community clusters throughout our 
state. Last year, Governor Sandoval approved, and our 
legislature funded, five new VSOs which will allow us to travel 
to 12 more community clusters, providing complete state 
coverage. While ROVER does not touch as many lives as do our 
urban programs, often, the rural need is much greater, as is 
the lack of information regarding earned benefits.
    Next, I would like to mention our Nevada Green Zone 
Initiative, which has been identified as a best practice by the 
Joint Chiefs of Staff's Department of Warrior and Family 
Support. This initiative marshals and aligns all available 
resources in the areas of health, education, and employment, 
and improves service delivery through regional planning. A 
critical component of this initiative was the creation of the 
Green Zone Network. This free digital platform connects service 
providers with veterans. With the creation of the Green Zone 
Network, we have provided rural veterans and veterans in urban 
areas with a window through which to see and access services 
and opportunities.
    Nevada is also in the process of designing a second 
veterans nursing home to be located in Reno, Nevada. With only 
one nursing home located in Southern Nevada, veterans in rural 
northern and central Nevada must either move far from family to 
avail themselves of the quality of care associated with state 
veterans homes or live in other, often less nurturing, 
accommodations.
    Additionally, we are working with other state partners to 
develop a state Veterans Tracking System. Currently, public 
veterans' records are not stored in a central repository, which 
makes retrieval and analysis difficult. This system will help 
us identify where veterans live and help us provide them with 
information regarding their benefits.
    To support these initiatives, we are pursuing several VA 
grants, to include a rural transportation grant which, if 
approved, will provide rural veterans in eastern Nevada with 
transportation to VA medical appointments, and we have also 
applied for the Rural Veterans Coordination Pilot Grant to 
assist veterans transitioning to civilian life. If we receive 
this grant, we will expand our Green Zone Initiative, better 
targeting our rural and urban veterans.
    Much of what we do is assist veterans access the many 
available services. At no time in history have we seen such an 
outpouring of support, both nationally and locally. In fact, 
the Pentagon calls this unprecedented level of support the Sea 
of Goodwill. Because of this, the challenge often lies, not in 
the creation of new benefits, but with improved service 
delivery. Nowhere is this more evident than in the challenge 
associated with delivering VA services.
    We know that the professionals in the VA medical system and 
the VBA here in Nevada are dedicated to improving the lives of 
veterans. They work hard to develop innovative solutions. 
Several of their programs have had a positive impact on the 
lives of Nevada veterans.
    In the area of health care, the establishment of rural 
Community Based Outpatient Clinics has dramatically improved 
access. Often, however, our veterans must travel great 
distances to hospitals in Reno, Las Vegas or Salt Lake City to 
seek inpatient or specialty services available only at larger 
facilities. Most veterans understand that it would be difficult 
to offer these services in every small town. However, there is 
a desire for temporary housing options when they must seek care 
in a city. Local initiatives such as the Fisher House in Las 
Vegas or the Veterans Guest House in Reno help alleviate some 
of the stress and cost of travel, but needs would be better met 
if the VA had a program to help offset lodging and associated 
costs.
    Another beneficial development is the introduction of 
telemedicine options. The VA is now offering telemedicine 
services such as post-operative follow-ups, dermatology and 
podiatry consults, nutrition counseling, mental health 
counseling, just to name a few.
    And a final, important development has been the VA 
initiative to reimburse tribal health clinics for many primary 
services. They now reimburse the Indian Health Service for 
direct care services for eligible Indian veterans. This is 
another example of improved delivery service, and we applaud 
the VA's efforts to support our Nation's heroes living in 
tribal communities.
    Our partners at the Reno VBA have been working equally 
hard. Their efforts include training VSOs on initiatives such 
as Fully Developed Claims. They have also made available new 
technologies such as the Stakeholder Enterprise Portal that 
provides their partners access to VA web-based systems. They 
have supported every request we have made to provide personnel 
and materials at veterans' outreach events and have been very 
responsive to recommendations for improving services.
    We have also seen a dramatic improvement on the timeliness 
of claims, to include the eliminations of claims over two years 
old and the near elimination of claims over one year old.
    This effort, however, came at a cost. With finite 
resources, the VBA has not been able to keep pace with 
processing what are referred to as ``Non-Rated End Products'' 
or those actions that are not directly associated with 
disability claims. These actions include concurrent receipt 
claims, rating reviews, establishment of dependency and other 
requests. The backlog of Non-Rated End Products has risen to 
3,400. It is my belief that the Reno VBA needs additional 
personnel if it is to keep up with the accelerated pace of 
processing Fully Developed Claims and processing all the other 
actions needed in a timely manner.
    Finally, while new technologies to help veterans file 
online claims may seem promising, I am concerned about the 
impact on claims quality. Our VSO are experiencing an upswing 
in requests for appeals as a result of claims improperly or 
incompletely filed online. Veterans sometimes make mistakes or 
fail to include all required evidence without the onsite 
support of a VSO or VA representative. If these claims were 
filed correctly with the assistance of an advocate, the filing 
of appeals, the resulting delay of benefits to veterans, and 
the added workload for the VBA would all be reduced.
    One suggestion that might help is that the VA provide 
sufficient and qualified telephone or synchronous online 
operators to assist rural veterans complete these applications. 
And not just rural veterans, all veterans using these online 
benefits.
    In summary, Mr. Chairman, Ranking Member Titus and 
Committee Members, it is a promising time to be a veteran here 
in Nevada. We have a long history of honoring and supporting 
our veterans and the servicemen and women who make their home 
here. Our motto, ``Battle Born,'' attests to our warrior 
heritage and the pride we take in the contributions of our 
military. While there is much work to be done, I am encouraged 
by the attention to these issues and the momentum achieved thus 
far.
    Thank you again for your support to our veterans and their 
families and your interest in the ongoing collaboration and 
cooperation between Nevada and the U.S. Department of Veterans 
Affairs. I appreciate the opportunity to appear before you 
today, and I am prepared to respond to any questions you may 
have.

    [The prepared statement of Katherine Miller appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Miller.
    With that, I will recognize Ms. Snyder for 5 minutes for 
her testimony.

                   STATEMENT OF JANET SNYDER

    Ms. Snyder. Thank you. Chairman Runyan, Congresswoman 
Titus, and Members of the House Disability Assistance and 
Memorial Affairs Subcommittee of the House Committee on 
Veterans' Affairs, it is an honor to testify at this hearing. 
Because of my involvement with various military widows 
organizations and the Military Officers Association of America 
and other veterans' organizations, I have heard many comments 
and have talked to everybody about their experiences with the 
VA in Reno.
    And most importantly, Mr. Vito Valdez, our local Army 
Survivor Outreach Services Support Coordinator, has been really 
wonderful in helping our military widows. He takes them, the 
ones that have been denied, and he helps them process the 
claim, and he has found that his experience with the Reno 
office has been great. That is what he told me, great. He said 
they process--he says he fills out the forms, he sends them in, 
they respond. He checks on them by the phone with the 800 
number, and he says that the processing is good. He says he 
doesn't have any problems.
    After my husband passed in October 2010, I filled out my 
forms myself for VA Dependency Indemnity Compensation, and I 
received my DIC in six months, which everybody told me was the 
normal time to get it. Many widows don't want to fill out the 
forms themselves because they are not comfortable with it, and 
so they go to a VSO, and sometimes they have good experiences 
and sometimes they don't.
    I always encourage them that if they don't like the VSO, 
they need to go to a different one, because each one, you have 
a personality thing with them sometimes, and you need to get 
along with that person.
    But recently, one of my sister military widows and I went 
with--we took another member who wanted to get her aid and 
attendance from the VA. We met with Gene Kinofsky, who is from 
the VSO with the Jewish War Veterans. He sat with her. He took 
all of her information. He put it on the computer. After he 
finished, he gave her the form to take to her doctor. She got 
her benefits, her award letter, from the VA in Reno in over a 
month, just a little over a month. None of us could believe how 
quick it was. We thought it would take at least six months. But 
a little over a month, and then she got it.
    But the reason why is, we had a good VSO. She gave him all 
the information properly, and when she got the form for her 
doctor, the doctor answered all of the questions adequately and 
concisely, and I think that is the reason it was processed so 
quickly, I really do.
    Now, one of our military widows also had problems. She had 
problems in August of 2011, and I included that in the letter 
in my testimony.
    But even though it is 448 miles from Las Vegas to Reno, and 
it takes about seven-and-a-half hours to get there, there is 
really no reason to have to sit down with a person or talk to 
that person in Reno. If you fill out your forms properly, you 
mail them in, and then let the person in Reno do their job. 
That is the way I look at it, because when I filed my claim, I 
did that, and then later, I called that 800 number, and I never 
talked to someone in Reno because when you call that 1-800 
number, you could get any VA office anywhere in the country.
    What they do and how they explained it to me, we put what 
your question is, we give you the answer, we type it in the 
thing, and Reno will see those notes. I wanted to ask what is 
the status of my claim. They tell me, and I knew exactly where 
it was.
    And so, I think if people have a problem, they need to, 
first of all, get a good VSO. Don't be discouraged if the claim 
is denied. Just answer all the rest of the questions, send it 
in, and get it adjudicated. And if you have problems, another 
thing I recommend is you go to your local congresswoman or your 
senator and you ask their office to help you, intercede for 
you, because sometimes when it has interceded with a Member of 
Congress, things happen a little quicker.
    But I didn't have to do that, and I don't think I was 
lucky. I just think it was the way it was.
    Thank you very much.

    [The prepared statement of Janet Snyder appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Snyder.
    And with that, I will recognize Mr. Hollinger for 5 minutes 
for his testimony.

                  STATEMENT OF BRUCE HOLLINGER

    Mr. Hollinger. Chairman Runyan--excuse me. Let me clear my 
throat. It has been a while since I have talked.
    Chairman Runyan, Congresswoman Titus, nice to see you 
again.
    Ms. Titus. You, too.
    Mr. Hollinger. On behalf of the men and women of the 
Veterans of Foreign Wars of the United States, and specifically 
for those that are in Nevada, I want to thank you for the 
opportunity to offer the VFW's perspective on how the VA is 
meeting the needs of veterans living in Nevada.
    I will not address the claims backlog. We are pleased it is 
being worked off, and it has been discussed here in detail, so 
I am going to focus on process, policy and procedures, that we 
would like to bring to your attention.
    First of all, I would like to thank Congress and the VA for 
the new VA Regional Hospital and the medical centers here in 
Las Vegas. You have made a lot of veterans very happy. They no 
longer have to go to San Diego or anywhere else because 
specialty care is being set up here. So they really like the 
new facility, and it has allowed us to see more patients 
locally and pull back in all the outreach they were doing and 
starting to do it at the hospital. So that we would like to 
give a big ``attaboy'' to the support from Congress to fund 
that and the VA to implement it.
    Even with the new facility, veterans still experience a 
long wait time for routine appointments. Primary care 
appointments can still take up to 90 days, and specialty care 
appointments can take even longer. We are hopeful that the new 
patient-centered community care program will assist in reducing 
those wait times.
    Scheduling for compensation and pension exams continues to 
be an issue for our veterans in Nevada. Exams are sometimes 
scheduled with only one or two days' notice. This does not 
provide time for the veteran to necessarily reschedule to make 
the exam. Anecdotal experience, one gentleman was on travel for 
a week. They called and he missed his exam because they gave 
him two days' notice.
    If exams are missed, VA then adjudicates the claim without 
the exam, usually to the detriment of the veteran. These are 
not practices or policies VA has in place for scheduling 
appointments, but unfortunately anecdotal experience says that 
they are not isolated instances in Nevada.
    VA must work to ensure that customer service standards are 
upheld and proper scheduling practices are conducted so the vet 
can be afforded the fullest opportunity to complete their 
compensation and pension exams and have all evidence necessary 
to adjudicate their claim.
    The VA is pleased with the Reno Regional Office program 
that allows veteran service representatives and decision review 
officers to contact veterans directly and ask for clarification 
on an issue that is preventing VA from successfully 
adjudicating the claim. This is a much more efficient process, 
effectively reducing the claims processing time in many cases 
by more than two months.
    Unfortunately, many veterans have told us that they are not 
provided a call-back number when VA leaves a message. VA must 
ensure veterans have the ability to respond to those calls. If 
contact is not made, VA must continue to send letters 
requesting the information. Fortunately, many VA employees 
contact the representative service officer when VA fails to 
reach the veteran. We encourage the VA to mandate that veteran 
service officers are notified when veterans they represented 
are called to make the process work. However, it does not 
provide a safety net for those thousands of unrepresented 
veterans.
    Paper claims continue to be misplaced or lost, and we 
believe the likelihood of loss is increased when claims are 
brokered to other regional offices.
    VFW service officers must have a personal identification 
verification card to access files within the VA database. 
However, VA has struggled in granting these cards to our 
service officers. This is not just a local issue. It is a 
national problem that prevents service officers from accessing 
the Stakeholder Enterprise Portal. In Nevada specifically, 
service officers have waited eight months to a year to receive 
their personal identification verification cards. Recently, a 
new manager of Change Management in the Reno Regional Office 
has begun working with the veteran service officer community to 
assure most expedited process for issuing those cards.
    The lack of access to the Stakeholder Enterprise Portal 
also prevents our service officers from filing original 
paperless claims. While VA has recently released a nationwide 
protocol for issuance of personal identification verification 
cards, our service officers report problems with the procedure 
and continue working without this essential tool.
    VA is making strides in the areas of care and outreach to 
veterans. However, these strides are overshadowed by lost 
documentation and poor customer service. All the issues 
mentioned in this testimony are fixable. We want to work with 
the VA to remedy those issues.
    Thank you again for the opportunity to testify before you 
today. The VFW looks forward to working with Congress and with 
VA in identifying issues and suggesting solutions to ensure our 
veterans receive the care and services their selfless sacrifice 
has entitled them to.
    This concludes my testimony, and I am happy to answer any 
questions the Committee may have.

    [The prepared statement of Bruce Hollinger appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Hollinger.
    With that, we will begin the round of questions. My first 
question, probably two questions, are for Ms. Miller.
    First of all, I want to thank you and Mr. Baumann. I 
understand that you were kind enough to take my staff around to 
the Southern Nevada cemetery, veteran cemetery, and I 
appreciate you guys doing that, for your time.
    As to the VSOs who work within the ROVER Program, is there 
a training or a set protocol to ensure the consistency of the 
message and assistance being given at the 17 different clusters 
across the state? And what challenges do you still face with 
the ROVER Program?
    Ms. Miller. Mr. Chairman, thank you for the questions. 
There is a two-part answer to the training. We do have a very 
detailed, comprehensive training plan. It takes three years to 
fully train a veteran service officer. Quite frankly, we cherry 
pick. We go out and we find the best veteran service officers 
that are in other veteran service organizations, that are 
working as volunteers or working in posts and chapters, and we 
hire them. Very rarely, I can think of only one case in the 
recent past, since I have been here, that we have hired 
somebody that didn't have that strong background.
    So when we send somebody out into a rural area, they are 
good. On top of that, they are connected, where we can have 
them connected, via wireless, so they can call back to the 
office to answer any questions that need to be answered on-
site.
    One of our challenges to getting to the rural areas, 
frankly, has been Internet access. There will be places that we 
go where we can't use--we can't upload, and we will have to do 
forms by hand and bring them back and file them.
    Another challenge has been actually identifying where all 
our veterans are. I mentioned in my testimony how we are 
working to develop a data warehouse so we can do a better job 
of finding where our veterans in Nevada are. The VA estimates 
228,000 veterans in Nevada. Our studies show closer to 300,000. 
But because of the transient nature of our veterans, and 
because of some of the new industries or expanded industries 
with mining, some of the other issues, our veterans move around 
a lot.
    One of the things we are looking at is partnering with the 
VA to find out where they believe the veterans are, and instead 
of waiting for them to come to us, we start pushing information 
to them via any system we have, and that is why we hold great 
hopes out for the Green Zone Initiative and the Green Zone 
Network, which is really, if you will, a Facebook for veterans, 
where they can get on and find out about a lot of these 
opportunities.
    Mr. Runyan. Speaking of the Green Zone, along the same kind 
of questioning, how did you come across that plan or that idea?
    Ms. Miller. Mr. Chairman, the previous director of veterans 
services for the State of Nevada had seen similar programs that 
weren't quite statewide, but that offered those sorts of 
programs. He got with the Chairman of the Joint Chiefs of 
Staff. They had seen--they were looking for best practices also 
in the Warrior and Family Support Center, and between the two 
of them, the representative from there and the former director, 
they came up with the idea. Our governor loved it. The 
legislature supported it.
    The problem with any of these types of programs, it would 
be like Facebook in the first year, getting the word out, 
getting people online. And so these next couple of years, it is 
all about getting the word out so that more people are in the 
system, not only veterans but community members, those that 
have programs and opportunities for veterans.
    This is not a veterans problem. This is a community issue. 
So we need to get everyone in the community on that, which is 
why I mention Green Zone every time I get the chance. There are 
some postcards in the lobby that have the data and the Web 
site.
    [Laughter.]
    Ms. Miller. So I would highly encourage every one of you to 
take a copy of the postcard. Thank you for the question, Mr. 
Chairman.
    Mr. Runyan. And I think we understand that very well. I 
mean, we have all kinds of programs out there that people don't 
know that they are qualified for.
    Ms. Miller. It is very frustrating, Mr. Chairman, to link 
the veteran, the family member, the survivor, with the benefits 
that are there, and these aren't just Federal and state 
benefits. There is such an outpouring from the local 
communities, from non-profits, from individuals. I received a 
call the other day from someone who said I am a chaplain, I 
would like to marry veterans for free.
    So this is one of the things that the Green Zone gives us 
the opportunity to do, for folks to put their offerings out 
there, and then for our veterans to become aware of them.
    Mr. Runyan. Thank you.
    Next question is for Mr. Hollinger. I had a field hearing 
in my district in New Jersey with Mr. Walz last year, and C&P 
exams came up. We talked about wait time, and actually the 
House just voted to expand the private C&P exams to 15 ROs now. 
It was at 10, expanded to 15, because it was one of those 
examples that worked.
    Why do you think the VA only gives the veterans one or two 
days' notice on C&P exams?
    Mr. Hollinger. That is a good question, but I am not sure I 
know an answer to that question. I personally have not been 
involved in it. I just know that it occurs. We have several 
anecdotal experiences where the schedule could not be made by 
the veteran. It was very short notice.
    Mr. Runyan. Do you think it is an access to that provider 
issue?
    Mr. Hollinger. It very well could be. I don't know. If the 
opportunity comes up and it needs to be filled and the veteran 
has tried to be reached to make the appointment. But basically, 
whoever's fault it is, he doesn't make the appointment, all the 
penalty for not making the appointment falls on the veteran.
    Mr. Runyan. Something we could take a look at.
    But with that, I will yield to the Ranking Member, Ms. 
Titus.
    Ms. Titus. Thank you. I do appreciate that.
    I want to say, I also like the Green Zone. I brag about it, 
too. In fact, it inspired me to introduce legislation to create 
a grant program so every state can then have a version of the 
Green Zone aimed primarily at linking veterans with employers, 
that aspect of it. I know that is a big part of what you do.
    You also mentioned that there is a sea of goodwill out 
there. It seems like right now, everybody wants to help 
veterans. Veterans are kind of the charity du jour, and some of 
them do a really great job. U.S. VETS does, Veterans Village. 
But we have seen national news about organizations that will 
use the name ``veteran'' and then people will give to it 
because they want to support veterans, but then they are really 
just rip-off organizations that keep the money or pay the money 
to telemarketers or to the officers who run the organization, 
and the veterans see very little of that.
    So I want you to help me to keep a watch for those kind of 
groups so it is the legitimate groups that really get the 
support, and not some of these people who are trying to take 
advantage of the desire by the American public to be part of 
saying thank you to our veteran community.
    My question kind of has to do with perhaps we are creating 
a monster, and I say that in reference to the potential of 
creating a backlog in the appeals process. Some things that are 
happening now as we address the backlog in the claims process, 
maybe, are going to have some unintended consequences down the 
road.
    Some of the things that I heard you all mention as you were 
talking about some of the problems veterans are having is the 
lack of assistance dealing with the computer so that they can 
do the Fully Developed Claims and get away from paper and do it 
online. That has led to more mistakes because it is new 
technology. Some people aren't familiar with it. You don't have 
enough trained folks to help people file those. So those are 
mistakes that could cause the need for appeal.
    Also, I heard mentioned that as you ship cases out of the 
Reno office to other places--and this happens around the 
country, I just use this as an example--there is a greater 
likelihood for information to get lost or misplaced or never 
make it. That could lead to appeals.
    And finally, as the VA rushes to deal with all this backlog 
now in the cases in terms of the two years and the one year, 
and we want to get rid of those statistics that show such a 
backlog, it is likely that mistakes are going to be made which 
also will lead to more appeals.
    What do you think we can be doing, not only to address 
those problems, but to be proactive, so we don't come back in a 
year and say look at all this backlog of appeals now that we 
have solved the backlog of the original claims? I would ask any 
of you to comment.
    Mr. Baumann, you haven't said much. Do you want to be the 
first to weigh in on that?
    Mr. Baumann. Well, thank you very much for the question. 
One of the things you might consider is putting in a bank of 
computers and have an oversight group there, not where people 
are side by side where their questions would be shared, but 
separated enough that if you have a VSO there, that they could 
assist them. That would be one way that I would recommend you 
might do it.
    Ms. Titus. When you go into the veteran hospital where they 
have those three officers that help, are there computers there 
to help people file online, a kind of system like you are 
talking about, that could be built on to make it better?
    Mr. Baumann. I am sure there could, but I can't answer the 
question if that computer system is in there yet, that program. 
I don't know.
    Ms. Titus. Okay. Thank you.
    Can anybody else help us about the backlog, the appeals 
backlog that may be coming?
    Ms. Miller. Ma'am, Kat Miller, Nevada Department of Veteran 
Services. I have heard the VA say that it is really not a 
staffing issue, that they have adequate staffing, and the 
problem is more of a management issue, changing procedures to 
do things smarter.
    Any organization I have been in, obviously is reluctant to 
grow staff if it is not necessary. It is costly, and there is a 
tail to that. I just wonder if there has been any external 
reviews of staffing levels within the VBA to determine if they 
actually do have adequate staffing. Sometimes, it is hard to 
look at yourself and see what the right answer is. I know there 
have been plenty of reviews that talked about, that we have a 
problem here. I wonder if anyone has come in and actually 
looked at the staffing level and done those kinds of models 
outside of the VA to see if staffing is required.
    I will say that as we have gone out in Nevada, one of the 
things we have seen is the need for more computers, but that is 
not the largest issue that we have. The top five problems we 
have with online filing have nothing to do with access to the 
computers, and I would like to take a moment just to share a 
few of those problems we are finding with online filing.
    Number one, the veteran doesn't report all income or out-
of-pocket medical costs because they just really don't know 
what needs to be required. So then when the study is done 
later, if they are applying for a pension, they may not be 
eligible for it.
    The veteran is not reporting all dependents.
    The veteran reports inaccurate service dates, which may 
make them ineligible for certain service-connected 
determinations.
    And most often, the result is denied because of the lack of 
evidence, because the vet doesn't know what evidence is 
relevant for that claim. So they provide evidence, and they 
have more if they had known that that would be necessary, 
because they don't understand the nuances. This is not an easy 
task.
    And then there are some problems that are easier to fix. 
For example, the online form, you have to submit names and 
addresses of five previous employers, for example. But then you 
have to submit a separate claim or a separate document where 
you would list your employers. So some of the veterans say, oh, 
I have listed it on here, on the online claim, so I don't need 
to do that additional form. They don't have the additional 
form, and it is kicked back.
    So our biggest problem is, I don't know if you can dumb 
this down any more. It is a complex business, and there are 
some claims that just are not going to be suited for the online 
venue. We will get better as people get used to the technology. 
But as these are kicked back, it is just going to slow the 
system down.
    Thank you, ma'am.
    Ms. Titus. Thank you.
    Mr. Hollinger. May I add a comment to the idea of rushing 
the claims through will lead to a high rate of appeals? I am 
not sure you can forecast that, but I think we ought to have 
metrics set up to see if that is happening, and it ought to be 
made available to service organizations that are working with 
their veterans, because if the rush is actually increasing the 
appeals, we are going to have to find a balance between the 
two. You are never going to work appeals to zero. I know too 
many people who appeal for the sake of appealing. But if they 
started to grow, that might be a good indication, 
Congresswoman, that your suspicion may be, in fact, fulfilled.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Runyan. I thank the gentle lady.
    I just have one thing, Ms. Miller. I want to tie this back 
to the comments Ms. Snyder made in her testimony in talking 
about information and the lack of it, because Ms. Snyder's 
example of a Fully Developed Claim changes the whole ball game.
    Ms. Snyder. That is right.
    Mr. Runyan. When a claim is fully developed, you usually 
end up with a satisfied customer and a quicker result. I just 
wanted to point that out because VA does have their initiative 
for Fully Developed Claims. The problem is a lot of times our 
VSOs, our veterans don't get there for one reason or another. 
But just to make sure that everybody is aware of that.
    Ms. Miller. Yes, Mr. Chairman. I will tell you the State of 
Nevada is a fan of the Fully Developed Claim, and we are using 
them. We have seen a 40 percent increase at the Reno VBA. I 
don't know if those numbers are still current, but as of about 
three months ago there was about a 40 percent increase in FDCs 
largely because of their training of the VSOs in the area and 
making sure we all understood how to use those claims and how 
to help the veterans file them.
    Ms. Titus. Mr. Chairman, thank you for mentioning that. I 
do want to thank the Reno office for coming down and doing a 
full day of training with our veterans groups to help them to 
help others file those online claims. We got good responses 
from them about that. So I appreciate you all doing that.
    One last question. As you help veterans in Nevada, have you 
noticed any difference or any difficulty with those whose cases 
have been sent out of state? Do you deal with other regional 
offices, or is it basically the same?
    Ms. Miller. Ma'am, I am sorry. I haven't done any analysis 
of the difference between sending out-of-state or in-state, but 
it is certainly something I am going to take a look at now to 
see if there is an issue. Our larger problem is veterans 
transferring, because we do have a rather transient population.
    The issue that was mentioned on exams, we have many, many 
cases of veterans who transfer here from another region. They 
were waiting for a long period of time for their exam. As soon 
as they get in the car and start driving here, that exam pops. 
We just had one that happened in Kansas. So they get here in 
time to find out that the decision has been made because they 
failed to make an appointment they never knew about.
    So that is one of the advantages of the VSO. They can help 
you in transit as you are moving from one place to another to 
monitor the status of the claim and keep you apprised of what 
is going on.
    Ms. Titus. As you all do that, will you keep us informed 
about what you find as you look at some of these things that 
have been brought up as issues today?
    Ms. Miller. Yes, ma'am, I will.
    Ms. Titus. That would be great.
    And again, I want to thank the Chairman for coming out 
today to have this hearing, and for you all's testimony, and 
for all of you being here. I can't think of a better way to 
kind of move into Veterans Day when we are supposed to be 
saying thank you to those who have sacrificed so much as a 
hearing like this, so we can find out what we can do to better 
serve.
    So I really appreciate you, Mr. Chairman, the staff, and 
all of you for participating. Thank you.
    Mr. Runyan. I thank the gentle lady.
    Ladies and gentlemen, on behalf of the Subcommittee, I 
thank you for your testimony, and you are excused.
    I want to thank everyone for being with us today. In 
closing, I want to say to the veterans of South Nevada that the 
House Committee on Veterans' Affairs and my Subcommittee will 
continue to listen to your needs and work to address the issues 
discussed here today.
    Ms. Titus, thank you for inviting me to your district today 
and for making this hearing possible. It has been a pleasure 
having you serve as the Ranking Member of the Subcommittee and 
working with you together in a bipartisan manner on behalf of 
our veterans. I know that the veterans of South Nevada 
certainly appreciate your active participation in our 
Subcommittee.
    I would like, once again to thank all of our witnesses for 
being here today.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and include any 
extraneous material.
    Hearing no objection, so ordered.
    Once again, it has been a pleasure to have all of you with 
us here today, and I wish to thank Ms. Titus again for having 
me here in this hearing.
    It is now adjourned.

    [Whereupon, at 3:36 p.m., the Subcommittee was adjourned.]

















                            A P P E N D I X

                              ----------                              

                   Prepared Statement of Willie Clark
    Good afternoon, Chairman Runyan, and members of the Subcommittee. 
Thank you for the opportunity to discuss services provided to Veterans 
and their families throughout Nevada. I am accompanied today by Mr. 
Edward Russell, Director of the Reno Regional Office (RO).
    As the seventh largest state in the United States, Nevada 
encompasses approximately 110,000 square miles. It is home to more than 
244,000 Veterans who reside within the Reno RO's jurisdiction, with an 
additional 11,400 Veterans residing in 4 California counties also 
served by the Reno RO. Of these, approximately 33,500 Veterans receive 
VA compensation or pension benefits, and an additional 610 
beneficiaries receive Survivors benefits. Over $38.5 million in 
compensation and pension benefits are paid monthly.
    As you are aware, Nevada is comprised of 17 counties, of which 
Clark County is the largest with a population of nearly 2 million, 
followed by Washoe County with a population over 420,000 and Elko 
County with a population of nearly 50,000. The majority of the state's 
population (88 percent) resides in only 2 counties, with the remaining 
population scattered throughout the remaining 15 counties. The smallest 
county, Esmeralda County, has a population of fewer than 800 people. 
Nevada is unique in that nearly 87 percent of the land is federally 
controlled, thus making the state an ideal location for those who enjoy 
rural living. However, one of the difficulties with rural living is 
limited accessibility to resources.
    The Reno RO processes claims for disability compensation benefits 
and provides vocational rehabilitation and employment services for our 
disabled Veterans. The RO also provides claims assistance to over 600 
Veterans and family members per month. In addition, the RO has an out-
based office located in the newly opened VA Medical Center (VAMC) in 
North Las Vegas, approximately 450 miles from the main RO facility. The 
Las Vegas office primarily delivers vocational rehabilitation and 
employment services, placing rehabilitation counselors in the area 
where the majority of the jobs are located. This out-based office also 
has some limited claims processing capabilities and 4 intake 
specialists who assist over 2,150 visitors per month.
    The Reno office provides space for five Veterans Service 
Organizations (VSO). The North Las Vegas VAMC provides space for nine 
VSOs. To overcome Nevada's geographical challenges, the RO collaborates 
with its stakeholders to provide outreach to our Veterans residing in 
remote areas. In addition to VSOs, the stakeholders working in 
partnership with the RO include: Nevada's two VAMCs, Congressional 
offices, Nevada Division of Veterans Services, Nellis Air Force Base, 
Fallon Naval Air Station, Nevada National Guard, and the Air National 
Guard. The RO participates with these stakeholders in their Veterans' 
events to extend outreach to Veterans and their families experiencing 
geographical obstacles. The following are a few examples of the 
Veterans' events held over the past year:

    <bullet>  The Reno VAMC held an open house day at the Outpatient 
Clinic in Winnemucca, Nevada. The population in the area is less than 
7,500 and 2\1/2\ hours away from the RO. The RO was there to provide 
information and services. In addition, the RO had representatives at 
VAMC Veterans' events in Susanville, California, and Pahrump, Nevada.
    <bullet>  The RO attended local conferences held by Native American 
tribes to provide updates on Veterans benefits, answer questions, and 
provide direct assistance with claims. The RO also conducted outreach 
for local Native American tribes in partnership with the Reno VAMC.
    <bullet>  The RO participated in Senator Heller's Veterans' 
Roundtable.
    <bullet>  Congressman Amodei held quarterly town hall meetings 
across the 2nd District. The RO had representatives at every town hall 
to include Elko, Winnemucca, Fallon, and Carson City.
    <bullet>  Congresswoman Titus held a workshop and training session 
on the Fully Developed Claims Program and eBenefits for Veteran 
stakeholders in the North Las Vegas area.
    <bullet>  The RO continues to build strong relationships with the 
Nevada military bases at Nellis Air Force Base and Fallon Naval Air 
Station, the Nevada National Guard, and the Air National Guard. These 
relationships have allowed VA to participate with Servicemembers prior 
to discharge. The RO has military service coordinators assigned to 
Nellis Air Force Base. The RO also provides monthly briefings on VA 
benefits in Las Vegas and Fallon, Nevada. After deployments, the Reno 
RO has VA representatives at the Nevada National Guard and Air National 
Guard, who work closely with Servicemembers and their families to 
ensure they are well-educated on the benefits available to them.

    Collaboration with the VSOs has been invaluable in serving Veterans 
in rural areas. Our VSO partners are knowledgeable about VA's benefit 
programs and the services provided by the RO. The Disabled American 
Veterans organization uses a mobile van to reach rural areas of the 
State. Because Nevada does not have county-based Veterans service 
officers in rural areas, the Nevada Division of Veterans Services is 
developing a plan to expand its services to rural areas to provide more 
outreach and increased accessibility for Nevada's Veterans. The RO is 
supporting the Nevada Division of Veterans Services with training and 
technology initiatives for their expansion project.
    Two of VA's highest priority goals are to increase access for 
Veterans and their families across all areas of the country and 
eliminate the disability claims backlog in FY 2015 . VA's 
transformation plan includes a series of technology initiatives 
designed to achieve end-to-end digital filing capability, expanding 
accessibility for Veterans who do not live in close proximity to an RO. 
A key component of VA's transformation plan to improve access to 
benefits and services is eBenefits, the joint VA and Department of 
Defense Web portal that provides Servicemembers and Veterans with 
immediate access to information and over 50 self-service options. Over 
3 million Servicemembers and Veterans have already enrolled in 
eBenefits. Veterans can file their claims online through eBenefits, 
using a ``turbo tax'' like application that also allows Veterans to 
upload evidence to support their claims. Veterans also have access to 
VA's national call centers, which respond to over 12 million calls 
nationally per year - more than 7,500 of which are from Nevada's 
Veterans.
    Most recently, VA introduced the Stakeholder Enterprise Portal 
(SEP), which is a secure, web-based connection that complements 
eBenefits and gives VSOs and other authorized advocates access to 
assist Veterans in filing disability claims electronically. SEP will 
help VSOs to expand services to Veterans in rural areas. Training on 
use of this medium is underway at the Reno RO, and it is anticipated 
that the majority of our VSOs will be utilizing the portal by the end 
of the calendar year.
    With regard to leadership and staffing, the Reno RO has experienced 
challenges over the past few years as a result of retirements and 
transfers that have had an impact on performance. The RO is now in a 
rebuilding stage. The RO is allocated 93 full-time employees. At 
present, there are 90 full-time employees on board; however, the 
Veterans Service Center is fully staffed. To support its rebuilding, 
the Reno RO is utilizing all available technologies and tools to ensure 
consistent training is provided to employees across the RO and at the 
office in Las Vegas. Teleconferencing, videoconferencing, and in some 
cases, travel to the out-based office have been incorporated to ensure 
training needs are being met.
    The RO is making significant progress in improving the delivery of 
benefits and services. In April 2013, the Reno RO had over 1,100 
pending claims that were over 2 years old; by September 30, 2013, all 
of these had been completed. In June 2013, the Reno RO had over 4,000 
claims that had been pending more than 1 year; only 187 remain pending. 
Over 70 percent of Reno's employees are Veterans, and over 90 percent 
of the employees have a close relative who is a Veteran. These 
employees are dedicated to serving all Veterans residing in Nevada to 
the absolute best of their ability.
    As stated previously, the strong partnerships with the many 
stakeholders in Nevada are key to our success. We will continue our 
efforts to enhance and expand accessibility for Veterans and their 
families throughout the state. The leadership and employees of the Reno 
RO are fully engaged in serving our Veterans and their families, and we 
are dedicated to ensuring they timely receive the benefits they have 
earned and deserve.
    This concludes my statement. I would be pleased to answer any 
questions at this time.

                                 <F-dash>
               Prepared Statement of Katherine N. Miller
Introduction
    Good Afternoon Chairman Runyan and Ranking Member Titus. On behalf 
of the Nevada Department of Veterans Services and the approximately 
300,000 Nevada veterans, family members, and survivors we serve, I 
thank you for the opportunity to discuss outreach to disabled veterans 
in rural Nevada. As a veteran with 34 years of military service, I am 
proud to serve with the Nevada Department of Veterans Services and be 
part of Nevada's drive to create opportunities for our veterans to 
thrive. Our agency provides vital and efficient support to and advocacy 
on behalf of veterans, their dependants, and survivors, and provides 
our community and partners the opportunity to contribute in these 
endeavors. Through our programs we assist veterans submit claims for 
benefits, provide skilled nursing care, provide burial support at our 
state veterans' cemeteries, and help veterans successfully integrate 
into Nevada communities.
Overview
    Our vision is that Nevadans across our great state understand and 
celebrate the legacy of America's heroes--and working together we will 
ensure that veterans and their families understand and have access to 
opportunities that improve their lives. To realize our vision, we have 
invested significant effort developing initiatives to improve delivery 
of services to veterans in rural areas. I will share some of these 
efforts with you today, as well as discuss U.S. Department of Veterans 
Affairs initiatives that I believe have improved support to Nevada's 
rural veterans and areas that need additional attention.
State of Nevada Rural Veteran Initiatives
    While most of Nevada's veterans live in the Las Vegas Metropolitan 
Area in southern Nevada or the Truckee Meadows area in northern Nevada, 
32,000 veterans call rural Nevada home. Because of this geographical 
dispersion, delivery of services is difficult. Many rural veterans find 
it impossible because of health or expense to come to VA Veterans 
Benefit Administration (VBA) offices in Las Vegas and Reno. 
Additionally, even within urban areas there are home-bound, homeless, 
incarcerated, or infirm veterans that cannot visit VBA offices. This 
reality has driven the Nevada Department of Veterans Services to 
develop outreach programs that bring services to veterans wherever they 
may live. Today I will discuss several important initiatives that we 
have implemented or are implementing to improve rural area service 
delivery: 1) the Rural Outreach Veterans Enrichment and Resources 
(ROVER) Program; 2) the Green Zone Initiative; 3) the Northern Nevada 
Veterans Skilled Nursing Home; 4) the Veterans Tracking System; and 5) 
pursuit of VA grants supporting rural veterans.
    The ROVER Program sends traveling Veterans Service Officers (VSO) 
to communities in rural Nevada. As mandated by legislative statute, 
these VSO assist veterans, service members, and their families 
regarding any problem, issue or concern they may have. This includes 
providing information relating to veterans benefits and opportunities, 
and helping veterans prepare and submit claims, to include disability 
compensation, hospitalization, insurance, pension, training, education, 
or rehabilitation. With our help, and the help of other veterans 
organizations, the VBA can better reach rural veterans throughout 
Nevada. ROVER is currently supporting 17 community clusters throughout 
the state. Last year Governor Sandoval approved, and our legislature 
funded, five additional VSO which will allow us to travel to 12 more 
community clusters and provide complete state coverage.
    We are pursuing additional VSO to allow us to increase the 
frequency of visits to these areas. While the ROVER program does not 
touch as many lives as do our programs supporting urban Nevadans, often 
the rural need is much greater as is the lack of information regarding 
the benefits veterans have earned by serving their nation.
    Our Nevada Green Zone Initiative has been identified as a best 
practice by the Department of Warrior and Family Support, Office of the 
Chairman of the Joint Chiefs of Staff. Its purpose is to ensure the 
successful reintegration of Nevada's service members, veterans, and 
their families. The Green Zone Initiative marshals and aligns all 
available resources in the areas of health, education, and employment 
and improves service delivery through regional planning and 
coordination. One important component of the Green Zone Initiative was 
the creation of regional Veteran Community Councils. All but two of the 
11 Councils are located in rural communities. These councils set local 
objectives and coordinate between local veterans, organizations, and 
service providers to connect veterans with needed services. They also 
identify gaps in services that cannot be filled locally and need to be 
addressed by state and federal providers. Another of the Green Zone 
Initiative's critical components was the creation of the Green Zone 
Network. The Green Zone Network is a free digital platform that 
connects organizations and service providers with veterans in the areas 
of employment, education, and wellness. With the creation of the Green 
Zone Network, we have provided rural veterans with a window through 
which to see the opportunities that they might access locally and 
through electronic delivery.
    Nevada is also in the process of designing a second veterans 
nursing home to be located in Reno, Nevada. Studies have shown that 
people generally do not move to nursing homes that are located farther 
than 90 miles from where they live. With only one nursing home, located 
in Southern Nevada, veterans in rural northern and central Nevada must 
either move far from family to avail themselves of the quality of care 
and quality of life associated with a state veterans home or live in 
other, often less nurturing, accommodations. We have submitted a grant 
request to the VA for construction and are working with state and 
federal officials to identify funding for the project.
    Additionally, we are working with other state partners, notably 
Utah, to develop a state Veterans Tracking System. This system creates 
a database of veterans' information gathered from many sources to 
include the veteran, the Department of Motor Vehicles, and state vital 
records. Currently these public records are not stored in a central 
repository which makes retrieval and analysis difficult. This system 
will help us identify where veterans live and enable us to provide them 
with information regarding state and federal benefits and 
opportunities.
    To support these initiatives, we are pursuing several VA grants, to 
include a Veterans Affairs Grant for Transportation of Veterans in 
Highly Rural Areas. This grant, if approved, will provide veterans in 
rural eastern Nevada with transportation to medical appointments at the 
VA's Community Based Outpatient Clinic in Elko, Nevada. We have also 
applied for the Rural Veterans Coordination Pilot Grant. This grant is 
intended to assist veterans and their families who are transitioning 
from military to civilian life in rural or underserved communities. If 
we receive this grant, we will be able to expand and improve our Green 
Zone Initiative to further increase access to benefits for veterans and 
their families living in rural communities.
    Of course, much of what we do in these outreach programs is assist 
our veterans access state, local, federal and community services. At no 
time in history have we seen such an outpouring of support; both 
nationally and locally. In fact, the Pentagon calls this unprecedented 
level of support offered our veterans the ``Sea of Goodwill.'' Because 
of the many available services, the challenge lies not necessarily in 
the creation of new benefits but with improved delivery of existing 
services and benefits. Nowhere is this more evident than in the 
challenges associated with delivery of services offered by the VA.
U.S. Department of Veterans Affairs Support to Nevada Veterans
    The professionals assigned to the VA Medical System and the 
Veterans Benefits Administration here in Nevada are dedicated to 
improving the lives of Nevada's veterans. They have worked hard to 
develop innovative solutions to provide quality medical care and to 
provide benefits and services to veterans and their families. Several 
of their programs have a positive impact on the lives of our rural 
veterans.
U.S. Department of Veterans Affairs Health Care
    In the area of health care, the establishment of Community Based 
Outpatient Clinics in rural areas has dramatically improved access to 
care. Often, however, our veterans must travel great distances to the 
VA hospital in Las Vegas, Reno, or Salt Lake City to seek inpatient or 
specialty services available only at larger facilities. Most veterans 
understand that it would be difficult to offer these specialty services 
in every small town. However, there is a desire for temporary housing 
options for these veterans and their families when they must seek care 
in a city. Local initiatives such as the Fisher House in Las Vegas or 
the Veterans Guest House in Reno help alleviate some of the stress and 
cost of this travel, but critical veteran's needs would be met if the 
VA had a program to help rural veterans offset lodging and other 
associated costs during their visits to urban medical facilities.
    Another beneficial development in the area of healthcare has been 
the introduction of telemedicine options for our rural veterans. The VA 
is now offering telemedicine services such as post-operative follow-
ups, dermatology and podiatry consults, weight loss and nutrition 
counseling, neurosurgical evaluations, and mental health counseling, 
just to name a few. While these services were always available in the 
urban areas, advances in telemedicine have dramatically improved the 
delivery of health care services to rural veterans.
    A final, important development in the delivery of health services 
to rural Nevadans has been the VA initiative to reimburse tribal health 
clinics for many primary care services provided to Nevada's Indian 
veterans. VA now reimburses the Indian Health Service for direct care 
services provided to eligible Indian veterans. This is another example 
of the work being done to improve delivery of services to rural 
veterans and we applaud the VA's efforts to improve health care to our 
Nation's heroes living in tribal communities.
U.S. Department of Veterans Affairs Benefits Administration
    Our partners at the Reno VBA Regional Office have been working 
equally hard to improve support to veterans, by improving timeliness 
and quality of claims processing. Their efforts include supporting and 
training VSO in order to extend their reach into rural Nevada through 
our office and through the work of service officers working for 
national service organizations.
    They have also made available and trained veterans service 
organizations on new technologies such as the Stakeholder Enterprise 
Portal, a secure entry portal that provides VA partner organizations 
and external stakeholders access to the web-based systems we need to 
assist veterans, reservists, national guard members, and their 
dependents. They have supported every request we have made to provide 
personnel resources and materials at veterans outreach events and have 
been very responsive to recommendations for improving services. We have 
also seen a dramatic improvement on the timeliness of claims, to 
include the elimination of the backlog of claims over two years old and 
the near elimination of claims over one year old.
    This herculean effort, however, came at a cost. With finite 
resources, the Reno VBA Regional Office has not been able to keep pace 
with processing what are referred to as ``Non-Rating End Products,'' or 
those claims that are not directly associated with disability claims. 
These claims include establishment of dependency claims, Freedom of 
Information requests, concurrent receipt claims, rating reviews, and 
income, estate, and election issues. The backlog of Non-Rating End 
Products has risen to 3400. It is my belief that the Reno VBA Regional 
Office needs additional personnel resources if it is to keep up with 
the accelerated pace of processing Fully Developed Claims and process 
in a timely manner the many other claims and requests they are 
responsible for. The workload is only likely to grow; with the success 
of our outreach programs, we are increasing the number of claims filed 
on behalf of Nevada's veterans.
    Finally, while the creation of new technologies to help veterans 
file claims online may be seen as a positive move for rural veterans, 
we are concerned about the impact on claims' quality. Our VSO are 
experiencing an upswing in appeals as a result of claims improperly or 
incompletely filed online. Veterans often make mistakes when filing on 
line or fail to include all required evidence to support a claim 
without the onsite support of a VSO or VA representative. As a result, 
the veteran can be dissatisfied with the result and seek to appeal a 
rating decision. If these claims were filed correctly with the 
assistance of an advocate, the filing of appeals, the resulting delay 
of benefits to veterans, and the added workload for the VBA would all 
be reduced. One suggestion that might help is that the VA provide 
sufficient qualified telephone or synchronous online operators to 
assist rural veterans complete these online applications.
Summary
    In summary, Mr. Chairman and Ranking Member Titus, it is an 
exciting time to be a veteran in Nevada. Nevada has a long history of 
honoring and supporting its veterans and the service men and women who 
make their home here. Our Motto ``Battle Born'' attests to our warrior 
heritage and the pride we take in the contributions of our military. 
While there is much work to be done, I am encouraged by the attention 
to these issues and the momentum achieved thus far. As we improve 
delivery of service at all levels of government, more rural Nevadans 
are getting connected with the benefits and opportunities they earned 
through their service to this nation and its citizens. Be assured, the 
men and women in the Nevada Department of Veterans Services and 
Nevadans everywhere will continue to work with our federal partners to 
improve delivery of services to veterans wherever they may live.
    Thank you again for your support to our veterans, service members, 
and their families--and for your interest in the ongoing collaboration 
and cooperation between the State of Nevada and the U.S. Department of 
Veterans Affairs. I appreciate the opportunity to appear before you 
today, and I am prepared to respond to any questions you may have.

                                 <F-dash>
                   Prepared Statement of Janet Snyder
    Chairman Runyan, Congresswoman Titus, and Members of the House 
Disability Assistance and Memorial Affairs Subcommittee of the House 
Committee on Veterans Affairs:

    It is an honor to testify at this hearing. As Legislative Chair of 
the National Society of Military Widows, President of the Society of 
Military Widows of Southern Nevada Chapter #34, President of the Las 
Vegas Valley Chapter of Gold Star Wives of America, and member of 
Auxiliary Member Advisory Committee of the Military Officers 
Association of America, I have met and talked with many veterans and 
survivors in Nevada about their experiences with the VA Regional Office 
in Reno.
    Vito Valdez, our local Army Survivor Outreach Services (SOS) 
Support Coordinator, has assisted several of our military surviving 
spouses in filling out forms to receive their Dependency and Indemnity 
Compensation (DIC). These military widows had been denied coverage in 
the past, had filed appeals, and received more denial letters. He told 
me that his experience with the VA Office in Reno has been great. With 
the number of claims (burial, DIC, PMC) he has submitted to them, they 
came back with a reply in a timely manner. The issue he has is our VA 
Office here in Las Vegas. He stopped going there because of their slow 
processing system. He can go directly to the Regional Office in Reno 
with a faster answer. Vito corresponds with them by postal mail, 
sending the hard copy applications to 5460 Reno Corporate Drive, Reno, 
NV 89511. He only calls the 800-827-1000 number once the application is 
in progress. Vito always tells his clients to be patient, especially 
when dealing with the VA or DFAS, and never gives them an exact date 
when they will start receiving their benefits.
    After my husband passed in October 2010, I completed the forms 
myself and sent them to the Reno office. In six months I received my 
DIC. Everyone told me that this was the usual time for processing the 
paperwork.
    Many military widows are unable to complete the forms themselves, 
so they went to the local VA Office in Las Vegas, and did not receive 
good assistance. Some were told that they didn't qualify for benefits, 
and they gave up. I always encouraged them to go to another Veterans 
Service Officer (VSO) to get help in completing the forms.
    Recently one of my sister military widows with the Society of 
Military Widows and I accompanied a member who wanted to apply for Aid 
& Attendance. We went to the new North Las Vegas VA Hospital on 6900 N. 
Pecos Road, and met with Gene Kanofsky, Veterans Service Officer with 
the Jewish War Veterans. Gene put all of her information into the forms 
on the computer and gave her the form to take to her Doctor to complete 
and mail to the VA. In a little over one month, she received her award 
letter from the VA Office in Reno. None of us could believe how fast 
the service was. We had expected it to take at least six months. All of 
us discussed it, and we decided that the reason was because Gene had 
completed the online application properly, and our friend's Doctor had 
answered all of the medical questions accurately and concisely. There 
were no mistakes in the application for benefits.
    Another sister military widow, whose husband was a Gulf War 
Veteran, was not as lucky. Following is Rosa Falu-Carrion's report 
about her experiences:
October 25, 2013
RE: VA Regional Office
    My first encounter with the Reno office was in August of 2011. The 
office of the First Lady, Michelle Obama had sent a copy of an email I 
had sent to her office regarding how I was treated in the local offices 
in Las Vegas, following the unexpected death of my husband, Jose 
Vasquez Carrion.
    I received a call directly from the Congressional Liaison and was 
assured that I was a priority and would be taken care of quickly as she 
would report status updates to Mrs. Obama's office. However, only the 
first step of submitting the paperwork was the only step handled 
expediently.
    I never received mailed notification of receipt of the filed claim 
until I was advised by the Liaison to contact my district Congress 
person, Shelly Berkley's office.
    Shelly Berkley's office was also met with resistance and disrespect 
by the Reno office with rude emails and calls that were not returned 
for several weeks.
    Finally in early 2012 I received notification in my claim, but it 
was a denial claiming I wasn't married long enough to receive benefits. 
So the appeal process began through ``Notice of Disagreements'' that 
was lengthy, painful and unnecessary. All points could have been 
handled with one appeal.
    I called the White House, office of Michelle Obama and reported the 
problems I was facing with the VA even with specific instruction by the 
First Lady and help from my Congress Woman and the White House began an 
inquiry. Finally, at the end of November 2012, I received approval for 
DIC, however, my late husband was given a 20% service-connected rating, 
even though over 200-pages of doctors/hospital notes from civilian 
facilities beginning just a few months after he finished his active-
duty service were submitted, not to mention the VA hospital notes, 
which included medical profiles and reports of the physical problems he 
was claiming. The VA-Claimed they could not locate my late husbands' 
service medical records in order to make a complete determination. I 
provided every duty station with copies of awards, certificates, even 
photos proving where he was stationed.
    The latest disappointment is the denial of ChampusVA medical 
benefits that I so desperately needed.
    If any further information is needed I would be happy to provide 
it.

    Sincerely,

    Rosa Falu-Carrion

    Korea, Vietnam, and current war veterans have told me that they 
would never have received their VA benefits without the tireless 
efforts of their Veterans Service Officers. They had become discouraged 
after receiving denial letters multiple times, and were encouraged to 
appeal with additional information.

    It is most important to

    u Find a good Veterans Service Officer (VSO)
    u Make sure you have included all forms, documents, and medical 
records required
    u Keep submitting claims and appeals, even if they are denied
    u Ask the Caseworker at the local office of your U.S. 
Representative or Senator to help you
    u Document every phone call, letter written, and make copies of all 
correspondence
    u Be sure to thank everyone who helps you

    It is 448 miles from Las Vegas to Reno. Driving time takes 
approximately seven and a half hours. Therefore, it is not convenient 
to visit the VA Regional Office. It is highly unlikely that a veteran 
or survivor will ever talk with someone from the Reno office. When you 
call the 1-800-827-1000 number, you can reach someone in any office 
from around the country. It was explained to me that notes would be 
typed into the computer file about the subject of my calls (questions 
about the status of my claim), and that these would be made available 
to my Reno regional office.
    In conclusion, I don't think it is a problem to have the VA 
regional office in a remote area.
    We are our own best advocates.

    Janet Snyder

    Legislative Chair
    Society of Military Widows

    Auxiliary Member Advisory Committee
    Military Officers Association of America

                                 <F-dash>
                 Prepared Statement of Bruce Hollinger
    MADAM CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:

    On behalf of the men and women of the Veterans of Foreign Wars of 
the U.S. (VFW) and our Auxiliaries, I would like to thank you for the 
opportunity to offer the VFW's perspective on how VA is meeting the 
needs of veterans living in Nevada.
    First, I would like to take a moment to discuss the new VA medical 
center here in Las Vegas. Veterans like the new facility. It has 
allowed VA to begin seeing more patients and provide more of the 
specialty care that in the past was conducted through an MOU with 
Nellis Air Force Base, at a VA hospital in either Arizona or 
California, or was provided under contract in the community. Even with 
a new facility, veterans still experience long wait times for 
appointments. Primary care appointments can take up to 90 days and 
specialty care appointments can take even longer. The VFW is hopeful 
the new Patient-Centered Community Care (PCCC) program will assist in 
reducing these wait times. The House Veterans Affairs Committee must 
use its oversight role to ensure our facility has the resources to hire 
needed medical staff to provide timely access for Nevada's veterans, to 
go along with the quality care provided by VA.
    The VFW has a full time service officer who works at the medical 
center; he has a good relationship with the Operation Enduring Freedom/
Operation Iraqi Freedom (OEF/OIF) care coordinator. When an OEF/OIF 
veteran walks into the medical center to take advantage of the five 
year access to medical care, the OEF/OIF Coordinator checks to see if a 
claim for benefits was previously filed. If it hasn't been, the 
coordinator refers the veteran to a Veteran Service Organization (VSO) 
service officer, who is co-located in the medical facility for help in 
filing a claim.
    One request local veterans have that would make finding the new 
facility easier is to have road signs identifying the exits that lead 
to the facility from the highway.
    Scheduling for Compensation and Pension (C&P) exams continues to be 
an issue. Exams are often scheduled with only one or two days of notice 
to the veteran. This does not provide veterans time to rearrange their 
schedule to make the exam. If exams are missed, VA then adjudicates the 
claim without the exam, to the determent of the veteran. This was a 
larger problem while VA was working to eliminate all claims over two 
years old, but continues to be an issue across the country. At this 
time the only recourse for veterans when this happens is to file a 
Notice of Disagreement (NOD) in an effort to have the exam rescheduled.
    VFW knows of a veteran being called by scheduling, who told the 
veteran that his exam would take place the next day. The veteran was 
out of town and could not make the exam. The veteran was told by the 
scheduler, ``if the appointment wasn't important, then why did you file 
a claim.'' There are other reports that a VA employee would tell 
veterans that she would reschedule the C&P exam if they stated they 
were unable to make the appointment. Unfortunately, she would not 
reschedule and the next letter the veteran would receive would be a 
notice of denial of benefits. These are not the practices or policies 
VA has in place for scheduling appointments, but unfortunately, here in 
Nevada these are not isolated incidents.
    It is difficult to determine if these practices are widespread, 
because the Veteran Service Representatives (VSR) orders the exam, then 
goes through scheduling to make the appointment. The doctor who is 
scheduled to give the exam and the VSR would not be aware of when, or 
under what conditions the exam was scheduled. If the appointment is 
missed, the doctor notates the veteran failed to make the appointment, 
which is cause for the VSR to adjudicate the claim with the evidence at 
hand. VA must work to ensure that customer service standards are upheld 
and that proper scheduling practices are conducted so veterans are 
afforded the fullest opportunity to complete their C&P exams, and have 
all evidence necessary to adjudicate their claim.
    The VFW is pleased with the Reno VA Regional Office (RO) program 
that allows VSR and Decision Review Officers (DRO) to contact veterans 
directly and ask for clarification on an issue that is preventing VA 
from successfully adjudicating the claim. This program gives VA the 
ability to gather that missing piece of evidence or clarify an issue, 
eliminating the need to send a letter requesting the information, and 
then wait sixty days for a response. This is a much more efficient 
process, effectively reducing the claims processing time by more than 
two months in many cases.
    Unfortunately, many veterans have told us that they are not 
provided a call-back number when VA leaves a message. Consequently, 
working veterans cannot respond to VA with the necessary information in 
a timely manner. There are reports from veterans who received two or 
three of these types of calls, but they were not able to respond, only 
later to have their claim decided without the opportunity to provide 
the missing evidence or clarification. VA must ensure veterans have the 
ability to respond to these calls, and if contact is not made via 
phone, VA must continue to send the letter requesting the information. 
This new policy will only work if veterans are afforded the opportunity 
to respond.
    Fortunately, many VA employees will contact the representing 
service officers when VA fails to reach the veteran themselves. In 
these cases, the service officer can work with the veteran to answer 
the questions that are preventing VA from accurately adjudicating the 
veteran's claim. While this practice is very positive, it isn't 
required, so not all VA employees take the time to contact the service 
officer for assistance, nor does it provide a safety net for the 
thousands of unrepresented veterans. VA must mandate that VSOs are 
notified when the veterans they represent are called to make this 
process work.
    Our service officers report that paper claims continue to be 
misplaced or lost, and the likelihood of loss is increased when claims 
are brokered to other regional offices. This is adding months and years 
to veterans' claims, often requiring veterans to resubmit some or all 
of their evidence. Our service officers have started making copies of 
all documentation for the veterans they represent as a safety net for 
when files are lost, allowing them to protect effective dates and 
quickly resubmit the claim.
    VFW services officers must have a Personal Identification 
Verification (PIV) card to access files within the VA database. 
However, VA has struggled in granting these cards to our service 
officers. This is not just a local issue, it is a national problem that 
prevents service officers from accessing the Stakeholder Enterprise 
Portal (SEP). In Nevada specifically, VFW service officers have waited 
eight months to a year to receive their PIV cards. Recently, a new 
manager of Change Management in the Reno RO has begun working with the 
VSO community to ensure a more expedited process for issuing the PIV 
cards. We are hopeful this issue can be quickly resolved.
    The lack of access to SEP also prevents our service officers from 
filing original paperless claims. Service officers want to file claims 
electronically, knowing the likelihood of a lost file is decreased and 
that claims can move though the system much quicker. With access being 
limited and our service officers are forced to file paper claims. While 
VA has recently released a nationwide protocol for issuance of PIV 
cards, our service officers report problems with the procedure and 
continue working without this essential tool. This is a source of 
frustration for our service officers that prevents them from assisting 
in VA's move to an all paperless claim process.
    VA is making strides in areas of care and outreach to veterans, 
however, these strides are overshadowed by lost documentation and poor 
customer service. All the issues mentioned in this testimony are 
fixable. We want to work with VA to remedy all of these issues.
    Thank you again for the opportunity to testify before you today. 
The VFW looks forward to working with Congress and VA in identifying 
issues and suggesting solutions to ensure our veterans receive the care 
and services their selfless sacrifice has entitled them to.
    This concludes my testimony, and I am happy to answer any questions 
the Committee may have.

                                 [all]

</pre></body></html>
